9/13/2021

Visa Platinum Secured | Members 1st Federal Credit Union

VISA PLATINUM® SECURED ACCOUNT
DISCLOSURES

INTEREST RATE AND INTEREST CHARGES

Annual Percentage
Rates (APR) for

18.00%.

Purchases

APR for Balance
Transfers

APR for Cash Advances

18.00%.

18.00%.

Your due date is approximately twenty-five (25) days after the close of each billing cycle. We will not
How to Avoid Paying
charge you interest on purchases if you pay your entire balance by the due date each month. We will begin
Interest on Purchases
charging interest on cash advances and balance transfers on the transaction posting date.

For Credit Card Tips
from the Consumer

To learn more about factors to consider when applying for or using a credit card, visit the website of the

Financial Protection

Consumer Financial Protection Bureau at https://www.consumerfinance.gov/learnmore/.

Bureau

Transaction Fees

Annual Fees

$25.00

Balance Transfer Fees

1.0% of the amount of each balance transfer.

Cash Advance Fees

1.0% of the amount of each transaction at Over-the-Counter or Cash Equivalent.

Foreign Transaction
None
Fees

ATM Transaction

1.0% of the amount of each transaction at ATMs.

Penalty Fees

Up to twenty-seven dollars ($27.00) the first time, any subsequent violation within six (6) months up to
Late Payments
thirty-seven dollars ($37.00). This applies to payments received after five (5) days from the due date.

Over Limit Fee (Opt In)

Up to $15.00

Return Payment Fee

$20.00

Other Fees

Card Replacement Fee

$10

Returned Statement

You will be charged one dollar ($1.00) for each monthly billing statement that is returned.

Copies of Visa

You will be charged three dollars ($3.00) for each copy you request of a receipt for any purchase, credit,

Transaction Receipts

Cash Advance, or of a monthly billing statement (except in connection with the resolution of a billing

and Statements

error).

How We Will Calculate Your Balance: We use a method called "average daily balance" (including new purchases). See your account
agreement for further information regarding how we calculate your balance.

Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided on your monthly
account statement.

https://www.members1st.org/personal/spend/visa-cards/visa-platinum-secured-account-disclosures

1/3

9/13/2021

Visa Platinum Secured | Members 1st Federal Credit Union

Minimum Deposit Requirement: In order to open this Secured Credit Card Account, a minimum deposit equal to the card credit limit
is required as security for a Members 1st Visa Platinum® Secured Credit Card. The minimum average balance to earn Annual
Percentage Yield (APY) is $300.00.

Maximum Deposit Amount: The maximum deposit requirement is the lesser of the credit card credit limit or $5,000.00. Deposits
exceeding the amount of the card credit limit are not permitted to the Secured Card Savings Account.

Account Graduation: The Members 1st FCU VISA Platinum® Secured Credit Card offers cardholders who have demonstrated 24
months of continuous on time payments without any derogatories the ability to convert their Secured Credit Card to any other
unsecured Members 1st credit card priced and based upon the cardholder's creditworthiness at the time of graduation.

The above APR and fees are accurate as of April 1, 2020.

Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and
their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit card account). The audio version of this disclosure can
be heard by calling 1-800-309-1766.

Members 1st Federal Credit Union Secured Card Savings Account Disclosures

The fees and terms applicable to your Secured Card Savings account at the Credit Union are provided in this
Truth-in-Savings Disclosure. The Credit Union may change the APY for these accounts.
Effective Date: November 1, 2019

DIVIDEND

Dividend Rate/Annual Percentage Yield

0.15% Rate/ 0.15% APY

BALANCE REQUIREMENTS

Minimum Opening Deposit

$300.00

Minimum Balance to Earn Stated APY

$300.00

TRUTH-IN-SAVINGS ACCOUNT DISCLOSURES

https://www.members1st.org/personal/spend/visa-cards/visa-platinum-secured-account-disclosures

2/3

9/13/2021

Visa Platinum Secured | Members 1st Federal Credit Union

Rate Information. The Annual Percentage Yield is a percentage rate that reflects the total amount of dividends to be paid on an
account based on the dividend rate and frequency of compounding for an annual period. The Dividend Rate and Annual Percentage
Yield are the prospective rates and yields that the Credit Union anticipates paying for the applicable dividend period. Except as
otherwise noted, the Dividend Rate and Annual Percentage Yield for the account are variable and may change at any time at the
discretion of the Credit Union.

Compounding and Crediting. Dividends will be credited monthly to your account and transferred to your Regular Savings Account.
There will be no compounding of dividends in the Secured Card Savings Account. The dividend period begins on the first calendar
day of each calendar month and ends on the last calendar day of each calendar month. The dividend period is monthly.

Balance Computation Method. Dividends are calculated by the average daily balance method in which dividends are computed by
applying a periodic rate to the average balance in the account for each day of the period and dividing that sum by the number of days
in the period.
Accrual of Dividends. Dividend will begin to accrue on cash and non-cash deposits (e.g., checks) on the business day you make the
deposit to your account.

Balance Information. The minimum balance required to open each account tis disclosed under the Minimum Opening Deposit column
shown above. For Savings accounts, there is a minimum balance required to obtain the Annual Percentage Yield and to avoid a
service fee. If the minimum balance is not met on any day, you will not earn the stated Annual Percentage Yield and there will be a
monthly service fee.

Fees and Charges. See Service Charge schedule for a list of fees and charges that may be assessed against your account.

Transaction Limitations. Transfers, deposits and withdrawals from the Secured Card Savings account are restricted due to the
security interest granted to the Credit Union.

Nature of Dividends. Dividends are paid from current income and available earnings after required transfers to reserves at the end
of a dividend period.

Bylaw Requirements. See Membership & Account Agreement.

CERTAIN PRODUCTS AND RATES ARE NOT AVAILABLE FOR PUBLIC FUNDS ACCOUNTS, FINANCIAL INSTITUTIONS, OR OTHER
INSTITUTIONAL INVESTORS.
The Secured Card Savings Account will not be included in calculating Member Loyalty Rewards balance or service computations but
the credit card balance will be included.

https://www.members1st.org/personal/spend/visa-cards/visa-platinum-secured-account-disclosures

3/3

